 BULK FUEL INFRASTRUCTURE MAINTENANCE, REPAIR, AND
   ENVIRONMENTAL PROJECT REVIEW PROCESS: PACIFIC

Report No. D-2001-040                     January 30, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at (703)
  604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                OAIG-AUD (ATTN: AFTS Audit Suggestions)
                  Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                         Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DESC                  Defense Energy Support Center
DLA                   Defense Logistics Agency
MAJCOM                Major Command
MILCON                Military Construction
MR&E                  Maintenance, Repair, and Environmental
PACOM                 U.S. Pacific Command
JPO                   Joint Petroleum Office
                        Office of the Inspector General, DoD
Report No. D-2001-040                                                   January 30, 2001
   (Project No. D1999CG-0088.005)

             Bulk Fuel Infrastructure Maintenance, Repair, and
              Environmental Project Review Process: Pacific

                                    Executive Summary

Introduction. This report is one in a series that addresses the accuracy and reliability of
maintenance, repair, environmental (MR&E), and military construction requirements for
bulk fuel storage and delivery systems infrastructure. The Defense Energy Support
Center, Defense Logistics Agency, provides fuel to DoD customers and is responsible for
budgeting and funding military construction and maintenance and repair projects,
including environmental projects, at all DoD fuel terminals.
Objectives. Our overall objective was to evaluate the accuracy and reliability of DoD
MR&E and construction requirements for bulk fuel storage and delivery systems
infrastructure. Specifically, this audit evaluated maintenance and repair project
requirements to replace a fuel pipeline system located at Misawa Air Base, Japan. We
also reviewed the adequacy of the management control program as it applied to the audit
objective.
Results. Headquarters, Pacific Air Forces, personnel approved a bulk fuel-related MR&E
project at Misawa Air Base but could not demonstrate that project requirements were
properly validated. As a result, the Defense Energy Support Center approved a $1.13
million MR&E project that may not have been necessary to support operational
requirements. In addition, unless the Air Force, the U.S. Pacific Command Joint Petroleum
Office, and the Defense Energy Support Center take corrective action to improve the
project requirements review and validation process, additional funds could be used on
nonessential or unnecessary projects in the future. In July 2000, Defense Energy Support
Center personnel canceled the project before any funds had been spent. For details of the
audit results, see the Finding section of this report. See Appendix A for details on the
management control program.
Summary of Recommendations. We recommend that the Civil Engineer, Headquarters,
Pacific Air Forces, establish procedures for reviewing fuel-related MR&E project
requirements in accordance with Air Force engineering guidance. We also recommend that
the Deputy Chief of Staff (Installations & Logistics), Headquarters, Air Force, establish
guidance for managing overseas fuel-related MR&E projects for which Defense Energy
Support Center programs and budgets. In addition, we recommend that the Joint Petroleum
Officer, U.S. Pacific Command, and the Director, Defense Energy Support Center,
establish procedures to validate MR&E project requirements in accordance with DoD
guidance.
Management Comments. The Civil Engineer, Headquarters, Pacific Air Forces,
nonconcurred with the finding and recommendation, stating that the MR&E project at
Misawa Air Base was reviewed and validated using procedures established in Air Force
technical guidance. The Civil Engineer acknowledged that the validation process was not
documented and also recognized that improved documentation was necessary. The Civil
Engineer stated that they would document the validation process and specifically address
procedures for annotating project operational and technical evaluations. The Deputy Chief
of Staff (Installations & Logistics), Headquarters, Air Force, agreed to revise the Air Force
instruction on fuels management. The Joint Petroleum Officer, U.S. Pacific Command,
nonconcurred with the finding and recommendation, stating that the MR&E project review
process works and follows DoD 4140.25-M guidelines. The Joint Petroleum Officer stated
that the Misawa MR&E project requirement was valid when initially submitted and
subsequently canceled during project revalidation. The Joint Petroleum Officer stated that
he will document existing procedures to validate MR&E requirements in accordance with
DoD 4140.25-M. The Defense Logistics Agency, Defense Energy Support Center,
nonconcurred with the recommendation, stating that the Defense Energy Support Center
had an effective process in place to review and evaluate MR&E projects and that DoD
4140.25-M did not need revision. The Defense Logistics Agency stated that the Defense
Energy Support Center relied on the expert opinions of Service engineers and programmers
for validation information. The Defense Energy Support Center confirmed the replacement
requirement for the Misawa MR&E project by working with Pacific Air Forces engineers.
The Defense Energy Support Center will revise its internal procedures, however, to direct
that the design/construction agent determine the most economic solution to MR&E
requirements. A discussion of the management comments is in the Finding section of the
report, and the complete text is in the Management Comments section.
Audit Response. Although the Civil Engineer, Headquarters, Pacific Air Forces; the
Joint Petroleum Office, U.S. Pacific Command; and the Defense Logistics Agency
nonconcurred with the recommendations, their planned corrective actions satisfy the
intent of the recommendations.




                                            ii
Table of Contents

Executive Summary                                                      i


Introduction
     Background                                                       1
     Objectives                                                       1

Finding
     Validation of Bulk Fuel Delivery System Maintenance and Repair
        Requirements                                                   2

Appendixes
     A. Audit Process
          Scope                                                       12
          Methodology                                                 12
          Management Control Program Review                           13
          Prior Coverage                                              13
     B. Report Distribution                                           14

Management Comments
     U.S. Pacific Command                                             17
     Pacific Air Forces                                               20
     Department of the Air Force                                      23
     Defense Logistics Agency                                         24
Background
     This report is one in a series being issued by the Inspector General, DoD,
     addressing DoD maintenance, repair, environmental (MR&E), and military
     construction (MILCON) requirements for bulk fuel storage and delivery systems
     infrastructure. The Defense Energy Support Center (DESC), Defense Logistics
     Agency (DLA), is responsible for budgeting and funding MILCON and MR&E
     projects for DoD bulk fuel terminals worldwide.

     DESC is responsible for DoD fuel inventory management, including procurement
     and sales, and environmental oversight. Fuel-related infrastructure requirements are
     funded by DLA from two different funding sources. Maintenance and repair
     projects are funded through the Defense Working Capital Fund, which is a
     revolving fund that is continually replenished by a surcharge added by DLA to the
     sale price of fuel. Renovation and major construction projects are funded from the
     DLA allocation of MILCON appropriations.
     The Military Departments are responsible for the operation of the bulk fuel
     facilities under their cognizance. The Military Departments are also responsible
     for reviewing, validating, and prioritizing MR&E projects before submitting the
     projects to DLA for review and funding.



Objectives
     Our overall objective was to evaluate the accuracy and reliability of DoD MR&E
     and MILCON requirements for bulk fuel storage and delivery systems
     infrastructure. Specifically, this audit evaluated maintenance and repair project
     requirements to replace a fuel pipeline system located at Misawa Air Base, Japan.
     We also reviewed the adequacy of the management control program as it applied
     to the audit objective. See Appendix A for a discussion of the audit scope and
     methodology and the review of management control program.




                                         1
           Validation of Bulk Fuel Delivery System
           Maintenance and Repair Requirements
           Headquarters, Pacific Air Forces, personnel approved a bulk fuel-related
           MR&E project at Misawa Air Base but could not demonstrate that project
           requirements were properly validated. This condition occurred because:
                  •   Headquarters, Pacific Air Forces, personnel did not adequately
                      consider and document inherently obvious, more economical
                      options before submitting the project to DESC for approval in
                      accordance with Air Force engineering guidance;
                  •   Air Force guidance was inadequate on managing fuel-related
                      MR&E projects for which DESC programs and budgets;
                  •   U.S. Pacific Command Joint Petroleum Office (PACOM JPO)
                      personnel did not validate the project requirement in
                      accordance with DoD guidance; and
                  •   DESC personnel did not validate the project requirement in
                      accordance with DoD guidance.
           As a result, DESC approved a $1.13 million MR&E project that may not
           have been necessary to support operational requirements. The project was
           subsequently canceled in July 2000. In addition, unless the Air Force,
           PACOM JPO, and DESC take corrective action to improve the project
           requirements review and validation process, future additional funds could
           be used on nonessential or unnecessary projects.


Policy Guidance
    DoD guidance prescribes policy for bulk fuel storage and delivery systems
    infrastructure and documents the processes and assigns responsibilities for
    managing the infrastructure. Air Force guidance for programming and managing
    fuel-related maintenance and repair projects was limited to civil engineering
    managers and did not address requirement validation or documentation
    maintenance.

    DoD Directive 4140.25, “DoD Management Policy for Energy Commodities
    and Related Services,” April 20, 1999. DoD Directive 4140.25 prescribes DoD
    policy for energy and related programs (for example, petroleum, natural gas, coal,
    and propellants). The Directive states that the programs shall support DoD
    peacetime and wartime missions and permit successful and efficient deployment
    and employment of forces. The Directive also states that DoD Components shall
    minimize inventories consistent with peacetime and contingency needs.

           Defense Logistics Agency Responsibilities. The Director, DLA, is
    responsible for planning, programming, and budgeting for facility maintenance
    and repair; environmental compliance of petroleum storage and distribution

                                        2
     facilities; and construction of new permanent storage and distribution facilities.
     DLA is required to coordinate these functions with the Services and combatant
     commanders.

            Military Department Responsibilities. The directive states that the
     Military Departments are responsible for the operation of petroleum facilities
     under their cognizance.

     DoD 4140.25-M, “DoD Management of Bulk Petroleum Products, Natural
     Gas, and Coal,” June 1994. DoD 4140.25-M (the DoD Manual) implements
     DoD Directive 4140.25, prescribes policy guidance, and assigns functional
     responsibilities for the integrated materiel management of bulk petroleum
     products and associated bulk fuel storage facilities. The objective of integrated
     materiel management is to purchase, store, and distribute bulk petroleum products
     in an economic and efficient manner. The DoD Manual states that the Combatant
     Command Joint Petroleum Offices and the Service control points are responsible
     for MILCON and MR&E project review and validation, as well as for developing
     consolidated project priority lists. The Joint Petroleum Offices are responsible for
     overseas projects. The Joint Petroleum Offices and the Service control points
     forward candidate projects and consolidated project priority lists to DESC. The
     DESC reviews, validates, programs, and budgets for approved projects. The DLA
     must review project documents and approve or disapprove funding requests for
     repair projects greater than $750,000. The DoD Manual prescribes the annual
     cycle for MR&E project submissions to DESC.

     Air Force Engineering Technical Letter 99-6, “Programming Fuels
     Projects,” December 10, 1999. Engineering Technical Letter 99-6 (the
     Technical Letter) provides guidance to civil engineering managers who program
     and manage fuel-related MR&E, minor construction, and MILCON projects
     where funding is the responsibility of the DESC. The Technical Letter states that
     base civil engineers must prepare MR&E documentation and that the
     documentation must “explain the project and the need . . . . Where there are
     obvious, less expensive options, explain why they were not used. Minor
     construction projects should have an economic analysis attached when there may
     be options.” The Technical Letter instructs base personnel to submit MR&E
     projects to major command (MAJCOM) engineering personnel who review the
     documents for completeness and forward them to DESC.



Misawa Air Base Facility
     Misawa Air Base is the only combined joint Service installation in the Western
     Pacific. Misawa Air Base is the home of the 35th Fighter Wing, Pacific Air
     Forces, and hosts a variety of associate Army, Navy, Marine Corps, and Japan Air
     Defense units. Headquarters, Pacific Air Forces, is the MAJCOM and is located
     at Hickam Air Force Base, Hawaii.

     The bulk fuel storage facility at Misawa Air Base included 12 bulk fuel tanks
     distributed between two tank farms. Rail car systems were used to resupply the
     fuel. Fuel was transferred between the tank farms and the rail car system by three

                                           3
       6-inch above ground pipelines at one tank farm and two 6-inch above ground
       pipelines at the other.



Pipeline Replacement Project
       Misawa Air Base civil engineering personnel established a maintenance and
       repair requirement to replace the fuel pipelines between the tank farms and the
       rail car system because of corrosion. Engineering personnel initiated a MR&E
       project by preparing a DD Form 1391∗ that documented the requirement to
       replace:

              •   three 6-inch, above ground pipelines to the rail car system with three
                  6-inch carbon steel, underground pipelines, at one tank farm, and

              •   two 6-inch, above ground pipelines to the rail car system with one
                  6-inch carbon steel, underground pipeline at the other tank farm.

       The scope of the project also included providing cathodic protection, associated
       distribution system equipment, and site improvements.

       Base Level Documentation of Project Requirements. The base civil engineers
       prepared the MR&E project document submission (DD Form 1391), but the
       documentation did not provide information to justify pipeline replacement over
       repair, a more obvious, less expensive option. In addition, the project
       documentation did not include an economic analysis. The Technical Letter states
       that base civil engineers must explain why obvious, less expensive options are not
       used and include an economic analysis when there may be options. Although
       base civil engineers documented and submitted the project requirement,
       engineering personnel opinions varied on whether pipeline replacement or repair
       was necessary. The engineering personnel could not provide documentation to
       support the requirement for replacement instead of repair, or to indicate that they
       had considered and rejected pipeline repair before establishing the replacement
       requirement. Base civil engineering personnel submitted the MR&E project to
       the MAJCOM for review.

       MAJCOM Review of MR&E Projects. MAJCOM engineering and logistics
       personnel stated that they reviewed and validated MR&E projects, but did not
       have documented procedures.

               MAJCOM Project Review Process. MAJCOM engineering and
       logistics personnel described the following process for MR&E project review and
       validation.

                     •   Installation personnel initiated MR&E project requirements,
                         prepared the DD Form 1391 and supporting project

∗
 DD Form 1391, “FY __ MILITARY CONSTRUCTION PROJECT DATA” is the standard form
 prescribed by DoD 4140.25-M for MILCON and MR&E project submissions.


                                            4
                  documentation, prioritized the installation projects, and
                  submitted project documentation to MAJCOM engineering
                  personnel.

              •   MAJCOM engineering and logistics personnel reviewed
                  project documentation for accuracy and validate project
                  requirements, prioritized the projects for the entire MAJCOM,
                  and submitted the project documentation to the PACOM JPO.

              •   PACOM JPO prepared and submitted a project prioritization
                  list for each subunified command and submitted the list to the
                  subunified command for review and approval. The sub-unified
                  commands reviewed and approved the project prioritization list
                  or responded with requests for changes. PACOM JPO
                  performed a final prioritization list and submitted it to DESC
                  for approval.

       MAJCOM engineering and logistics personnel stated the following
information regarding the review process.

              •   They validated projects by reviewing the DD Form 1391 for
                  the project.

              •   MAJCOM engineers were aware of the physical condition of
                  the fuel infrastructure at PACAF installations.

              •   MAJCOM logisticians were aware of the operating condition
                  and mission requirements of the installations.

              •   They questioned project requirements when unclear, but they
                  had no documentation to indicate that DD Form 1391s were
                  reviewed or that questions were asked and answered.

              •   They meet annually to validate and prioritize the MR&E
                  projects submitted by each base in response to the annual
                  DESC data call. The engineers added that project validation
                  and prioritization was based, in part, on periodic infrastructure
                  assessments performed by MAJCOM engineers and logistics
                  personnel.

              •   They also based project validation and prioritization on a
                  working knowledge of maintenance and repair issues at the
                  MAJCOM installations.

        MAJCOM Review of Pipeline Replacement Project. MAJCOM
engineering and logistics personnel stated that they reviewed and validated all
MR&E project requirements submitted by Pacific Air Forces installations, but
they did not have any supporting documentation to indicate that the pipeline
replacement requirement had been reviewed or validated. MAJCOM engineering
personnel stated that they reviewed and submitted the pipeline replacement
project to the PACOM JPO based on a worst-case scenario. MAJCOM

                                     5
engineering personnel planned to determine the specific requirements for repair or
replacement after DLA funding approval during the project design phase.
MAJCOM engineering personnel submitted the project to the PACOM JPO as
part of the FY 2000 MR&E program.

PACOM JPO Prioritized MR&E Projects. The DoD Manual states that the
Combatant Command JPO is responsible for MR&E project review and
validation, as well as for developing consolidated project priority lists for
overseas projects. The PACOM JPO personnel stated that they do not validate
MR&E projects and do not have the civil engineering expertise to perform
validation. PACOM JPO personnel stated that they relied on project requirement
validation at the MAJCOM and installation levels because installation and
MAJCOM personnel had the engineering expertise and continually coordinated
fuel facilities issues and requirements. PACOM JPO included the pipeline
replacement project in the consolidated project prioritization list for the sub-
unified command (U.S. Forces Japan) review. The JPO submitted the project to
DESC for approval in response to the FY 2000 MR&E data call.

DESC Reviewed and Approved Project Requirements. DESC did not validate
the pipeline replacement project in accordance with the DoD Manual. DESC
personnel stated that there were more than 1,000 MR&E projects, and they did
not have the manpower to validate all of the requirements. DESC personnel
stated that they thoroughly reviewed project documentation but relied on the
requirement validation performed by the MAJCOM. DESC personnel stated that
they had reviewed the Misawa project submission and documented DESC
questions and issues in the DESC MR&E project database, in accordance with
established procedures. DESC personnel stated that major commands and
installations needed to address DESC questions documented in the database
before project consideration for approval.

        DESC Response to Pipeline Project Submission. DESC instructions for
MR&E project submittals states that the DESC MR&E database tracks and
manages projects and environmental requirements, and assists with budget
formulation. The instructions state that projects are entered into the database
when initially received. In cases where DESC had questions, concerns, or
disagreed with the technical approach recommended by the customer, the issue
was documented in the database comments field and communicated to the
customer. DESC received the Misawa MR&E project and entered the project
data into the DESC MR&E database on June 18, 1999, with the following
questions and comments.
           1.   Project scope includes C.P. [cathodic protection], but no line item
                in cost estimate. Please provide detailed cost estimate for further
                clarification of work classification.
           2.   Project as written includes over $750,000 in repair...Project must
                go to DLA for approval.
           3.   There are no design costs on the DD1391, why?
           4.   Can the P/L [pipeline] be restored without complete replacement.
                Please provide more detailed justification.

       MAJCOM Revised Project Documentation. MAJCOM engineering
personnel submitted a revised DD Form 1391 in August 1999 in response to


                                          6
    DESC comments. Revisions included cathodic protection and design cost
    estimate line items. The folowing comments were added.
               The pipeline cannot be restored to safe operating condition.
               Maintenance costs continue year after year to accomplish spot fixes
               along the length of the pipe, not just in a few identifiable areas. During
               this maintenance, the paint and corrosion is stripped off back to bare
               metal and then repainted. Eventually, the walls of the pipes and joints
               will fail catastrophically. They need to be buried for not only
               operational safety and environmental protection, but also force
               protection. Such protection was justified for cut-and-cover tanks at
               Misawa vs. above ground tanks in the recent MILCON submittal, and
               although some of the information regarding the current threat is
               classified, the increased costs in the MILCON were supported due to
               the threat level at Misawa. By burying the lines, the pipes will be
               protected from such threat.

            MAJCOM civil engineers did not have any documentation to support the
    comments added to the DD Form 1391. MAJCOM civil engineers stated that
    installation personnel did not have the capability to analyze the strength
    characteristics of the existing pipe and acknowledged that analysis was necessary
    to determine whether repair or replacement was necessary. The civil engineers
    stated that they planned to have the architectural engineer contractor perform the
    analysis to determine whether repair or replacement was the most economic
    solution. An architectural engineer contract would not be awarded, however, until
    after DESC approved the requirement to replace the pipeline and DLA approved
    project funding.

            DESC Approved Project and Submitted to DLA for Funding
    Approval. The DESC personnel approved the pipeline replacement project on
    May 18, 2000. The DESC personnel stated that they did not validate the project
    requirement and that project approval relied on the MAJCOM requirement
    validation. The DESC general engineer for the project stated that validation of
    the requirement to replace or repair the pipeline would involve measuring and
    testing the pipeline to determine pipeline thickness. DESC submitted the project
    to DLA for funding approval because project estimated costs exceeded the
    $750,000 threshold for DESC funding approval.


Pipeline Project Cancellation Recommended
    MAJCOM personnel conducted an infrastructure assessment and program review
    at Misawa Air Base in April 2000. The assessment determined that the MR&E
    pipeline replacement requirement was no longer necessary because of new
    MILCON requirements to consolidate bulk fuels operations by relocating all
    tankage in tank farm one to tank farm two. The MILCON project was approved
    as part of the Japanese Facilities Improvement Program. As a result, MAJCOM
    engineering personnel recommended cancellation of the MR&E project.
    Accordingly, DLA canceled the project in July 2000 before any funds were spent.




                                              7
Air Force Guidance on Fuel-Related MR&E Projects
    Air Force guidance on managing overseas fuel-related MR&E projects for which
    DESC programs and budgets was inadequate. Air Force guidance for facility
    construction projects addresses only MILCON and minor construction.
    Maintenance and repair was not included in the scope of the instruction. In
    addition, Air Force guidance for maintenance and repair was limited to
    appropriated funded projects and did not address projects funded by the Defense
    Working Capital Fund through the DLA MR&E program. The Headquarters, Air
    Force Civil Engineer Support Agency, issued guidance (the Technical Letter) to
    civil engineering managers in December 1999 for programming and managing
    fuel-related maintenance and repair projects. The guidance specifically addresses
    “fuel-related MR&E, minor construction, and MILCON projects where funding is
    the responsibility of the DESC,” and states that MAJCOM engineering personnel
    must review project documentation for completeness. However, the Technical
    Letter did not address project requirement validation. Details of the Technical
    Letter were discussed in the Policy Guidance section on page 2 of this report.

    Air Force Instruction 32-1021, “Planning and Programming of Facility
    Construction Projects,” May 12, 1994. Air Force Instruction 32-1021 provides
    guidance and procedures for developing projects for facilities obtained through
    MILCON and minor construction. Air Force Instruction 32-1021 states that
    MAJCOMs will review and validate facility requirements and cost estimates for
    facilities obtained through MILCON and for minor construction projects. Real
    property maintenance funded construction is excluded from the scope of the
    instruction.

    Air Force Instruction 32-1032, “Planning and Programming Appropriated
    Funded Maintenance, Repair, and Construction Projects,” September 1,
    1999. Air Force Instruction 32-1032 provides guidance and instruction for
    planning and programming minor military construction projects and real property
    maintenance and repair projects using funds available for operation and
    maintenance. Air Force Instruction 32-1032 states that MAJCOMs will review
    and validate facility requirements and cost estimates for facilities obtained
    through operation and maintenance funded unspecified minor construction and
    real property maintenance and repair projects.



Summary
    MAJCOM engineering personnel coordinated with MAJCOM logistics personnel
    to review MR&E project requirements for completeness. However, neither
    Misawa Air Base personnel nor MAJCOM personnel were able to provide any
    documentation on procedures followed to assess or validate those requirements.
    In addition, MAJCOM personnel approved replacing the pipeline but had not
    validated that pipeline replacement was necessary before submitting the project to
    DESC for approval. Furthermore, neither the PACOM JPO nor the DESC
    validated the project requirement in accordance with DoD guidance. DoD
    regulations for managing overseas MR&E projects do not provide guidance or

                                        8
    assign responsibilities below the Combatant Commander, JPO level. At a
    minimum, JPO and DESC personnel should have verified that the project
    requirements were adequately validated before requesting approval.

    Air Force guidance on the subject was incomplete and did not address
    requirement validation for fuel-related projects at the MAJCOM and installation
    levels. Although MAJCOM personnel acknowledged responsibility for reviewing
    and validating project requirements before requesting DESC funding approval,
    review efforts were not documented. Questions documented by DESC on the
    pipeline project indicated that project requirement information was incomplete.
    Unless clear, relevant guidance is established and effectively implemented, the
    Air Force cannot ensure that MR&E project requirements at overseas activities
    are properly validated to promote the economic and efficient use of funds.

    We commend MAJCOM personnel for their infrastructure assessment efforts,
    which identified unnecessary project requirements and led to project cancellation
    before funds were spent. MAJCOM must implement procedures, however, to
    ensure that project requirements are adequately validated before submission to
    DESC for approval and funding. While the periodic infrastructure assessments
    are invaluable to reviewing requirements, some Pacific Air Forces installations
    have not been assessed in almost 5 years. The MAJCOM needs procedures to
    ensure that all project requirements are adequately validated. The MAJCOM-
    level validation process is critical for ensuring that only validated MR&E
    requirements are forwarded to DESC for approval.



Recommendations, Management Comments, and Audit
Response
    1. We recommend that the Civil Engineer, Headquarters, Pacific Air Forces,
    establish procedures for reviewing fuel-related maintenance, repair, and
    environmental project requirements in accordance with Air Force
    Engineering Technical Letter 99-6, “Programming Fuels Projects,”
    December 10, 1999. The procedures should address consideration and
    documentation of alternative options when appropriate.

    Management Comments. The Civil Engineer, Headquarters, Pacific Air Forces,
    nonconcurred, stating that the maintenance, repair, and environmental project at
    Misawa Air Base was reviewed and validated using procedures established in Air
    Force technical guidance. The Civil Engineer described the procedures that were
    followed to validate the project. The Civil Engineer acknowledged that the
    validation process was not documented and recognized that improved
    documentation was necessary. The Civil Engineer stated that they would
    document the validation process and specifically address procedures for
    annotating project operational and technical evaluations.

    Audit Response. Although the Civil Engineer, Headquarters, Pacific Air Forces,
    nonconcurred, actions planned by the Civil Engineer to document the validation


                                        9
process and operational and technical evaluations for each project satisfies the
intent of the recommendation. No additional comments are required.

2. We recommend that the Deputy Chief of Staff (Installations & Logistics),
Headquarters, Air Force, establish guidance for managing overseas fuel-
related maintenance, repair, and environmental projects for which Defense
Energy Support Center programs and budgets. The guidance should
specifically address policies and procedures for validating maintenance,
repair, and environmental project requirements from an operational, as well
as technical, requirement perspective.

Management Comments. The Deputy Chief of Staff (Installations & Logistics),
Headquarters, Air Force, concurred, stating that all actions will be completed by
April 30, 2001.

3. We recommend that the Joint Petroleum Officer, U.S. Pacific Command,
establish procedures to validate maintenance, repair, and environmental
project requirements in accordance with policies outlined in DoD 4140.25-M,
“DoD Management of Bulk Petroleum Products, Natural Gas, and Coal,”
June 1994. At a minimum, procedures should verify whether adequate
project requirement validation was performed by the major command
sponsoring the project.

Management Comments. The Joint Petroleum Officer, U.S. Pacific Command,
nonconcurred, stating that the maintenance, repair, and environmental project
review process works and follows DoD 4140.25-M guidelines. The Joint Petroleum
Officer described the review process and responsibilities of the major command, the
Joint Petroleum Office, and Defense Energy Support Center. The Joint Petroleum
Officer stated that the Misawa maintenance, repair, and environmental project
requirement was valid when initially submitted and subsequently canceled during
project revalidation. The Joint Petroleum Officer also stated that the audit
presumed the process was broken based on the review of a single project. The Joint
Petroleum Officer noted that they will document procedures to validate
maintenance, repair, and environmental requirements in accordance with DoD
4140.25-M.
Audit Response. Although the Joint Petroleum Officer, U.S. Pacific Command,
nonconcurred, actions planned by the Joint Petroleum Officer to document
maintenance, repair, and environmental requirement validation procedures in
accordance with DoD guidelines satisfies the intent of the recommendation. No
additional comments are required.

4. We recommend that the Director, Defense Energy Support Center,
establish procedures to validate maintenance, repair, and environmental
project requirements in accordance with policies outlined in DoD 4140.25-M,
“DoD Management of Bulk Petroleum Products, Natural Gas, and Coal,” June
1994. At a minimum, the procedures should verify whether adequate project
requirement validation was performed by the Joint Petroleum Office
sponsoring the project.



                                     10
Management Comments. The Director, Defense Energy Support Center,
nonconcurred, stating that an effective process was in place to review and
evaluate maintenance, repair, and environmental projects and that a revision of
DoD 4140.25-M was not required. The Director, Defense Energy Support Center,
stated that the process was not singular in nature, but involved coordination from
the base level up to the theater command, and input from the various levels could
affect project approval or rejection. The Director, Defense Energy Support
Center, further stated that they rely on the expert opinions of Service
programmers and engineers for validation information. The replacement
requirement for the Misawa maintenance, repair, and environmental project was
confirmed by working with major command engineers. The Defense Energy
Support Center will revise its internal procedures to direct that the
design/construction agents determine the most economic solution to maintenance,
repair, and environmental requirements.

Audit Response. Although the Director, Defense Energy Support Center,
nonconcurred, actions planned to revise internal procedures will formally task the
design/construction agents to review projects for the most economic solutions to
maintenance, repair, and environmental requirements. Those actions satisfy the
intent of the recommendation. No additional comments are required.




                                    11
Appendix A. Audit Process

Scope
    Work Performed. We reviewed DoD and Air Force guidance for validating bulk
    fuel-related infrastructure project requirements and conducted on-site visits to
    determine whether the guidance was adequately implemented. We reviewed
    documentation for FY 1996 through June 2000 used to support current MILCON
    and MR&E projects at Misawa Air Base, Japan. Additionally, we reviewed the
    methods used to prepare supporting documentation for MILCON and MR&E
    project requests.
    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following goals
    and performance measures.
           •   FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key warfighting capabilities. Transform the
               force by exploiting the Revolution in Military Affairs, and reengineer
               the Department to achieve a 21st century infrastructure. (00-DoD-2).
           •   FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
               infrastructure by redesigning the Department’s support structure and
               pursuing business practice reforms. (00-DoD-2.3).
           •   FY 2000 Performance Measures 2.3.1: Percentage of the DoD
               Budget Spent on Infrastructure. (00-DoD-2.3.1).
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Infrastructure high-risk area.


Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.
    Audit Type, Dates, and Standards. We performed this economy and efficiency
    audit from June 2000 through October 2000, according to auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management controls
    considered necessary.
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


                                        12
Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of the Pacific Air Forces management controls over bulk fuel storage
    and delivery systems infrastructure MR&E projects. Specifically, we reviewed
    management controls over the review and validation process for bulk fuel
    infrastructure MR&E project requirements. Because we did not identify a
    material management control weakness, we did not assess management’s self-
    evaluation.
    Adequacy of Management Controls. The management controls for MR&E
    projects were adequate in that we identified no material management control
    weaknesses.



Prior Coverage
    Inspector General, DoD, Report No. D-2001-006, “Bulk Fuel Storage
    Requirements for Maintenance, Repair, and Environmental Projects at Fort Hood,
    Texas,” October 23, 2000.

    Inspector General, DoD, Report No. D-2001-003, “Bulk Fuel Storage and
    Delivery Systems Infrastructure Military Construction Requirements for Japan,”
    October 12, 2000.

    Inspector General, DoD, Report No. D-2000-164, “Bulk Fuel Storage and
    Delivery Systems Infrastructure for Yakima Training Center, Washington,” July
    20, 2000.




                                       13
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Installations)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Pacific Command
  Commander, United States Forces Japan

Other Defense Organizations
Director, Defense Logistics Agency
Director, Joint Staff

Non-Defense Federal Organization
Office of Management and Budget
General Accounting Office




                                          14
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform




                                          15
U.S. Pacific Command
Comments




                       17
18
19
Pacific Air Forces
Comments




                     20
     Final Report
      Reference




     Page 9




21
22
Department of the Air Force
Comments




                      23
Defense Logistics Agency
Comments




                      24
25
26
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD, who
contributed to the report are listed below.

Paul J. Granetto
Wayne K. Million
Deborah L. Carros
James E. Miniter
Robert E. Smith
